Nos. 19-840, 19-841

In the Supreme Court of the United States
STATE OF CALIFORNIA, ET. AL.,

Petitioners,

AND

UNITED STATES HOUSE OF REPRESENTATIVES,

Petitioner,

V.

STATE OF TEXAS, ET. AL.,

Respondents,

AND

UNITED STATES OF AMERICA, ET. AL.,

Respondents.

ON PETITIONS FOR WRIT OF CERTIORARI TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that Individual
Respondents’ Opposition to California et. al’s and United States House of
Representatives’ Motion to Expedite Consideration of the Petition for a Writ of
Certiorari, to Expedite Merits Briefing and Oral Argument in the event that the
Court Grants the Petition, and to Expedite Consideration of this Motion contains
1,182 words, excluding the parts of the document that are exempted by Supreme
Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on January 10, 2020.
/s/Robert Henneke
ROBERT HENNEKE

